U.S. Department of                                                  Office of Inspector General
Transportation
Office of the Secretary
of Transportation


 September 26,2006


 The Honorable David Laney
 Chairman
 Amtrak Board of Directors
 60 Massachusetts Ave, NE
 Washington, DC 20002

 Dear Mr. Chairman:

 On October 25, 2005, House of Representatives Transportation and Infrastructure
 Committee Chairman Don Young asked Congressman Richard Baker to lead a
 worlung group to evaluate information from the Government Accountability
 Office (GAO), the Amtrak Inspector General, and the Department of
 Transportation Inspector General regarding Amtrak's management and
 performance. This request was prompted, in part, by issues raised in the
 October 2005 GAO report, Amtrak Management: Systemic Problems Require
 Actions to Improve Efficiency, Effectiveness, and Accountability.

 In March 2006, the Majority Members and the Democratic Members of the
 Amtrak Working Group issued separate reports summarizing their findings. The
 Democratic Members of the Amtrak Working Group included among the
 recommendations in its report the following, "Our investigation indicates that
 some of the deficiencies cited in the GAO report represent a failure of Amtrak's
 Board of Directors. Accordingly, we intend to request that the DOT IG conduct
 an investigation of whether the Board of Directors is adequately carrying out its
 legal and fiduciary responsibilities."

 On April 25, 2006, the Democratic Members of the Amtrak Working Group
 formally requested that our office undertake this investigation. They cited
 concerns that Amtrak's Board of Directors has not exercised sufficient oversight
 of the corporation or held management accountable for results and whether the
 Amtrak Board's expenses are appropriate.

 As a result, our office plans to conduct a review of how Amtrak's Board of
 Directors carries out its responsibilities. In addition, we plan to review the
 Board's expenses from Fiscal Year 2002 to the present as requested. The
objectives of this review are to determine (1) the rules, procedures and authorities
under which the Board operates, (2) whether the Board has followed established
processes and procedures, (3) whether the Board has set long-term goals and
performance objectives for Amtrak, (4) whether the processes and procedures that
the Board follows are sufficient for ensuring oversight of, and requiring
accountability from, Amtrak management, and (5) whether the Board members'
expenses comply with corporate guidelines and whether those guidelines are
sufficient to ensure prudent use of corporate resources. The results of our review
will aid in identifying whether potential reforms to improve the Board's
performance are needed.

The work will be carried out in Washington, DC. The Program Director for this
review is Mitchell Behm, and Debra Mayer is the Project Manager. If you have
any questions or need additional information, please call me at (202) 366-9970,
Mr. Behm at (202) 366-1995 or Ms. Mayer at (202) 366-2081.


Sincerely,




David Tornquist
Assistant Inspector General
 for Competition and Economic Analysis
